<html>
<title> - SUPPORTING THE FRONT LINE IN THE FIGHT AGAINST CRIME: RESTORING FEDERAL FUNDING FOR STATE AND LOCAL LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 110-347]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-347
 
SUPPORTING THE FRONT LINE IN THE FIGHT AGAINST CRIME: RESTORING FEDERAL 
              FUNDING FOR STATE AND LOCAL LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2008

                               __________

                          Serial No. J-110-75

                               __________

         Printed for the use of the Committee on the Judiciary



                     U.S. GOVERNMENT PRINTING OFFICE

41-527 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
EDWARD M. KENNEDY, Massachusetts     LINDSEY O. GRAHAM, South Carolina
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
                       Todd Hinnen, Chief Counsel
                  Walt Kuhn, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
    prepared statement...........................................    39
Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     5
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................    11
    prepared statement...........................................    47
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement and letter..................................    53

                               WITNESSES

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     8
Epley, Mark, Senior Counsel to the Deputy Attorney General, 
  Department of Justice, Washington, D.C.........................    12
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa..........     6
Horvath, Jeffrey, Chief of Police, Dover Police Department, 
  Dover, Delaware................................................    23
Ramsey, Charles H., Police Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania.........................    19
Wieners, Anthony F., Executive Board Member, National Association 
  of Police Organizations, Alexandria, Virginia..................    25

                       SUBMISSIONS FOR THE RECORD

American Council of Chief Defenders, Fern Laethem, Chair, 
  Washington, D.C., letter.......................................    38
Epley, Mark, Senior Counsel to the Deputy Attorney General, 
  Department of Justice, Washington, D.C., statement.............    41
Horvath, Jeffrey, Chief of Police, Dover Police Department, 
  Dover, Delaware, statement.....................................    49
National Association of Secondary School Principals, Gerald N. 
  Tirozzi, Executive Director, New Jersey, letter................    73
National Legal Aid & Defender Association, Washington, D.C., Jo-
  Ann Wallace, President and CEO, letter                             74
Ramsey, Charles H., Police Commissioner, Philadelphia Police 
  Department, Philadelphia, Pennsylvania.........................    76
Wieners, Anthony F., Executive Board Member, National Association 
  of Police Organizations, Alexandria, Virginia..................    81


SUPPORTING THE FRONT LINE IN THE FIGHT AGAINST CRIME: RESTORING FEDERAL 
              FUNDING FOR STATE AND LOCAL LAW ENFORCEMENT

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                                        U.S. Senate
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 2:07 p.m. in room 
SD-226, Dirksen Senate Office Building, Hon. Joseph R. Biden, 
Jr. presiding.
    Present: Senators Feinstein, Feingold, Specter, and Coburn.

OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Chairman Biden. The subcommittee will come to order.
    For our witnesses, let me briefly explain the order here. I 
have a brief opening statement. I believe that the Ranking 
Member, Senator Specter does. I'm told that Senator Feinstein 
has another meeting in Intelligence, or another committee, and 
she'd like to make a brief statement, which we'll be delighted. 
I'd invite my colleague, if he wishes to say anything at the 
outset. Then we'll hear from the money men, our two colleagues 
who are on the Appropriations Committee. We're delighted that 
they're here. Then we'll move on to the witnesses.
    Let me begin by pointing out to you all that a former 
staffer who ran the Criminal Justice Subcommittee for years for 
me, Scott Green, who is a referee in the NFL and done the Super 
Bowl and the rest, I've asked him to come back and throw the 
flag on you guys if you don't give us the right testimony. I 
just want you to know why he's here. Scott, it's great to see 
you. Good to have you back in the room.
    At the inaugural hearing of this subcommittee, a panel of 
law enforcement experts testified that the Federal funding for 
State and local law enforcement, to state the obvious, makes 
our streets safer, has driven down crime rates, and secured our 
communities against terrorism.
    At that hearing, I outlined three developments that had me 
greatly concerned, though. First, was I was concerned the 
administration would continue to cut funding for essential 
State and local law enforcement agencies like COPS, Byrne/JAG 
grant programs. Second, I was concerned the FBI would not 
replace the agents redeployed from investigating crime to 
fighting terrorism.
    As you gentlemen know, the FBI has worked over the years, 
depending on the jurisdiction--sometimes up to 10 to 12 percent 
of the criminal cases in some jurisdictions there have been 
some overlap with the FBI, and quite frankly their plate has 
been full since 9/11, and yet we haven't really added to their 
total. There's a real gap, in my view, that State and local law 
enforcement has had to fill in the absence of having to pull 
necessarily a significant portion of the FBI off of working 
with them.
    Third, I was concerned that the economic downturn that 
we're beginning to experience would squeeze localities and 
force them to cut their law enforcement and prevention budgets. 
Unfortunately, all three of these concerns, in my view, have 
been borne out. Since the President took office, the President 
has cut annual funding the COPS and Byrne Justice Assistance 
grants by $1.7 billion. The President's 2009 budget proposes to 
eliminate these grants entirely, which I think is a tragic 
mistake.
    The FBI agents reassigned away from fighting crime--well, 
they're fighting crime, but they're moved to focus on counter-
terrorism and terrorism--one investigator report last year 
stated the number of criminal cases investigated by the FBI has 
dropped by 34 percent. I would argue necessarily it's not a 
consequence of dereliction on their part, I think necessarily 
because of their new responsibilities.
    Again, in our effort to protect Americans from terrorism, I 
don't think we can leave them vulnerable to violent crime in 
the street. It doesn't matter to somebody if they're killed by 
a terrorist or they're killed by a thug, they're dead on our 
streets. We have to do both. That makes a commitment of 
resources that has frankly been lacking in recent years that I 
think needs to be reestablished.
    The economy has slowed down. The Washington Post reported 
this week that next year, 20 States expect their budgets to be 
in the red. As State governments are forced to tighten their 
belt because most have constitutional requirements to balance 
their budgets, they're likely to cut back on critical law 
enforcement funding. Federal assistance, I think, in that 
circumstance is going to become even more important.
    I learned a long time ago from cops like those we're going 
to hear from today that fighting crime takes constant attention 
and a steady commitment. I often say it's like cutting grass. 
You can cut the grass this spring and it's going to look great 
for a week. You let it grow for a week, then 2 weeks, 3 weeks, 
4 weeks out, it's a jungle. That's how crime is.
    I've never seen a time in American history where the 
population continues to grow, where there's any rationale for 
spending less money on fighting crime in the following year 
than the year you spent before. God ain't come up with a new 
brand of man. As Emerson said, ``Society is like a wave. The 
wave moves on, but the particles remain the same.'' The idea 
that you think you can beat crime one year and that will last 
for more than a year, I think, is a tragic mistake we're now 
making. We have to keep the grass mowed.
    So, ladies and gentlemen, I think we've neglected State and 
local law enforcement for too long and I think we've got a 
looming problem on our hands. A recent poll published by the 
nonpartisan Third Way indicates that 94 percent of Americans 
view crime as a ``very serious'' or ``fairly serious'' problem. 
That's considerably up. Moreover, 69 percent of Americans feel 
that violent crime is a bigger threat to them than the 
possibility of a terrorist threat. They're pretty smart.
    The concern of these Americans are serious and real. Last 
year, 1.4 million Americans were victims of violent crime, 
acknowledging that crime is down from what it was seven, eight, 
and 9 years ago, but still inexplicable high, in my view. So, 
last year, 1.4 million Americans were victims of violent crime, 
and more than 445,000 were robbed and more than 17,000 were 
murdered. These numbers are simply too high and I think we need 
to renew our commitment and return to what we know that works. 
As Ronald Reagan used to say, ``If it ain't broke, don't fix 
it.'' It wasn't broke, and they tried to fix it and now we have 
a problem.
    We know the COPS program works. Last spring, The Brookings 
Institution published a study showing that the COPS program 
contributed to the drop in crime during the 1990s, and is one 
of the most cost-effective options in fighting crime. 
Specifically, the study found that for every $1.4 billion 
invested in the COPS program, society realized a benefit of 
between $6 and $12 billion.
    We know the programs funded by the Byrne Justice Assistance 
grants work. Police officers and sheriffs walking the beat tell 
me that these programs are vital to their ability to protect 
America from crime and terrorism. I am sure they have told 
every one of the Senators here on both sides of the aisle.
    Productive, law-abiding citizens who participate in Boys & 
Girls Clubs and other prevention programs that Byrne/JAG grants 
fund tell me that they could not have done what they've been 
able to do in reducing crime without these programs. Citizens 
who have overcome the debilitating disease of drug addiction 
and lead healthy, meaningful lives tell me that drug courts and 
treatment programs funded by Byrne/JAG literally saved their 
lives.
    We know what the solution is. We know how to make American 
communities safer. We just need to make the commitment to 
restore funding to these tried-and-true programs, and I intend 
to do everything I can to see that that is the case.
    Now, Senator Specter was here, but I believe he had to 
leave for another committee. He saw Chief Ramsey, so I'll make 
sure that when he gets off the train at Amtrak he's not 
arrested on the way to home. But Chief, welcome, by the way.
    [The prepared statement of Senator Biden appears as a 
submission for the record.]
    So I'm assuming he may be back, but I'm going to skip right 
now to Senator Feinstein, if she would like to make any 
comment.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
want to particularly commend you and thank you, for the Crime 
bill when I first came into the Senate, the COPS program and 
your really constant and consistent defense of law enforcement 
and the issues that crime bring upon our communities. I mean, 
you've been there all the way and I just want to say thank you 
for it.
    Chairman Biden. Thank you.
    Senator Feinstein. I'm a big fan of the Byrne/JAG program. 
I know my two colleagues here, Senator Harkin and Senator 
Chambliss, join me. As a matter of fact, Senator Chambliss and 
I spearheaded an authorization of $1.1 billion. The bill passed 
the Senate and we had 52 co-sponsors. Senator Harkin has been 
at the front of the line in advocating for this and the three 
of us, on the emergency supplemental bill, are going to try to 
get together in Appropriations--we're all appropriators--and 
increase that amount in this Byrne/JAG column.
    There is no question, Mr. Chairman, that crime is going up. 
It was interesting to me to read a figure by the International 
Chiefs of Police, some of whom are here today, that for every 
2.5 percent of increase of violent crime, there are 31,000 more 
victims. I can speak for my State to say that the cuts in these 
law enforcement programs have eviscerated anti-drug efforts, 
anti-gang efforts, HIDA programs, all up and down the State. 
We've just simply got to fight against these cuts and do more 
about them, so we will try when that supplemental 
appropriations bill comes before the Senate.
    As you know, we passed a gang bill. After 10 years, Senator 
Hatch and I authored that Gang Prevention Act. It was difficult 
to pass in the Senate. We negotiated between both sides. It 
finally passed by unanimous consent, which is unusual, and is 
now in the House. I'm hoping that people here will help us get 
this Gang Abatement Act passed as well, because it's a good 
bill. It's evenly divided in funding between prevention, 
education, law enforcement, and prosecution.
    It actually sets some important criteria, I think, for the 
future: it sets aside $411 million for gang prevention and 
intervention; it establishes a new high-intensity gang activity 
area program, structured to facilitate cooperation between 
State, local and Federal law enforcement; it increases funding 
for the Justice Department, prosecutors, FBI agents, and others 
to increase investigations and prosecutions.
    Just this past week in Los Angeles, a section of the city 
had to be shut down because of gang warfare. Schools had to be 
locked up because of gang warfare. A 37-year-old innocent man 
holding a two-and-a-half-year-old toddler standing on a street 
corner was shot to death with 12 bullet holes because he got in 
between gang warfare. It goes on and on.
    So these grant programs for law enforcement are primo. They 
are No. 1. I just thank you so much, and I know Senator Coburn 
and the two distinguished people at the witness table, we will 
fight the good fight.
    Chairman Biden. Thank you, Senator.
    Senator Coburn?

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. I have a particular interest, even though I 
don't agree with how we got there. The Byrne/JAG grants have 
been tremendously beneficial where I've seen them utilized. 
Although I have mixed feelings on whether or not that's a 
Federal responsibility, if you look constitutionally you're 
going to have to question that, but we've gotten into that 
arena.
    I would like to submit for the record the latest data 
through 2006. State budget surpluses were $54 billion. I 
noticed the State that tended to get the most in terms of the 
directed earmarks, rather than the competitive money that was 
for the Byrne/JAG grants, had a surplus of $10 billion. The 
second most had a surplus of $7 billion. This year we're going 
to run the highest deficit in history.
    So there's no question that this is effective money, and I 
will work hard to help us reappropriate some of that money. But 
I want us to caution, when we take it and add it to a 
supplemental, we're not paying for it and we're asking somebody 
else to pay for it. The real hard work has to be, how do we go 
and find out what's not working and take the money from it 
rather than just charge this to our kids? I agree, the drug 
courts in Oklahoma have been a phenomenal life saver, rescuing 
people out. The assistance to many of our district attorneys in 
terms of their drug task force have been tremendously 
beneficial. But how we pay for it makes a difference.
    We only have 4 years left before things really hit the fan 
for this country in terms of the baby boomers. 2012 is the 
year. When you look at what is happening to the dollar today, 
you're looking at the weakening of our economy, you look at the 
price of oil that hit $102 today a barrel because we haven't 
managed our affairs--it's not necessarily a shortage of oil or 
an increase in demand. The price of oil has gone up 
proportionately higher for America than it has any other 
country and it's because people don't have the confidence in us 
to manage our financial means.
    So I appreciate our two colleagues here and their 
testimony, and their work to this. It's important. But it's got 
to be about some priorities, getting rid of some other things 
rather than just putting the money back up there and charging 
it to our kids.
    The final point I'd make, I would enter into the record 
that as we look at what happened last year, what happened was, 
the discretionary--the earmarks on the Byrne/JAG actually 
hardly declined at all in terms of the year before, but the 
block grants, the formula block grants, the ones where we have 
competitive bidding where different jurisdictions come in and 
say, here's where we have a need, here's why we're going to do 
it.
    Well, they're the ones that got gutted, from $660 million 
out of the Senate bill to $170 million. So if you've got 
earmarked whether you were competitive or not, you just got the 
favor. The people who are really competing for this money that 
may have had a greater need, they were just thrown under the 
bus.
    So there has to be a better balance between the earmarking 
of Byrne/JAG grants and the actual formulary grants. What we 
chose last year, is we stuck it to everybody that's applying 
for a grant and we gave it to everybody that got earmarked, and 
that's not the right way. It's not fair for those that are 
dependent on this money in the country, and that's something 
that we need to address as we look forward to this. I thank the 
Chairman for indulging me.
    Chairman Biden. Thank you, Senator. I'm happy to hear what 
you have to say. You and I are probably going to be having some 
debates about the security premium on oil. I don't think it's 
our economy, I think it's the fact that we haven't figured out 
how to settle the war in Iraq, and are worried about a war in 
Iran. That's what most of the security premium is.
    But that's another question, and we're going to probably 
have some disagreement, but we'll work together on the matter 
of the ``earmarks'', as you've referred to them, versus 
competitive grants. Most of those earmarks have gone to places 
where they've demonstrated there's a need and it's worked, but 
that's a different question.
    For now, we have two very important Senators here whom we 
rely on because they are on the Appropriations Committee, in 
addition to being men of significantly good judgment. Tom 
Harkin is my good friend and colleague, a member of Commerce, 
Justice, and Science Appropriations Subcommittee. He's worked 
closely with me on the law enforcement funding issues for, 
literally, decades, with all of us, I would say. It's good to 
have you here, Tom.
    And Saxby Chambliss, who, Senator Feinstein has pointed 
out, has been a real leader in the importance of law 
enforcement funding and husbanding how it's done. I appreciate 
his leadership, and am delighted they're both here.
    Gentlemen, the floor is yours.
    Mr. Chairman?

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM THE STATE OF 
                              IOWA

    Senator Harkin. Thank you, Mr. Chairman. Let me, first of 
all, echo what the Senator from California has said earlier, 
and to thank you, Senator Biden, for your many years of 
leadership in this area of fighting crime and drugs. You have 
been a true leader since I first came here in 1985. You 
preceded me by a few years on that one. But ever since I came 
here, we have looked to you for your leadership in providing 
the tools that our sheriffs and our police departments need to 
fight crime and drugs. I just, again, want to thank you for 
your whole lifetime of making sure that our law enforcement 
people--you see a lot of them sitting here--get the tools that 
they need.
    Chairman Biden. Thank you.
    Senator Harkin. So we thank you very much for that.
    Yesterday, Mr. Chairman, was the 20th anniversary of the 
killing of Edward Byrne, a young, 22-year-old rookie police 
officer in New York. He was assigned to a drug case. He was 
assigned to protect a witness, was sitting in his car in the 
early morning hours and a drugger came up and shot him several 
times in the head and killed him instantly. The killing was 
obviously an attempt to intimidate witnesses. This heinous 
crime then led to the enactment of the Edward Byrne Memorial 
State and Local Law Enforcement Assistance Program.
    I think it was recognized at that time, I think, Senator, 
that while we have looked to the states mostly for fighting 
crime and drugs, that in many cases these cross jurisdictional 
lines and therefore this would be an appropriate place for the 
Federal Government to come in and to assist in these efforts. 
That is exactly what the Byrne program did. It recognized it 
was not just a local problem.
    In fact, in all these years up until now, the Edward Byrne 
grant program is the only--the only source of Federal funding 
for multi-jurisdictional law enforcement efforts, the only 
source that we have to do that, and it has done great things.
    So I remember the history of this. In 1994, I led an 
effort, again with others, to restore the funding that was cut. 
I'm just going to be very frank here: it was cut by the Clinton 
administration. A number of us--and you, Senator Biden--were 
leading the effort at that time to get this money back in. We 
did, and we kept it in and we kept growing the Edward Byrne 
grant program.
    Well, what I'm here today to do is sound the alarm of 
what's happened this year. You touched on it, Senator Coburn. 
That is what has happened to the funding. Again, just in recent 
history, in 2002 it was $900 million. It was cut down to $520 
million in 2007, and now $170 million. That's a two-thirds cut 
in one year. In one year. Again, the Senate had $660 million 
for this year and the House had $600 million. But as you know, 
the President vetoed the bill, wanted to cut to $22 billion, so 
this all got wrapped up in that and that's why we wound up with 
$170 million. As you pointed out, Mr. Chairman, the President's 
budget for next year, again, zeroes out the Byrne program.
    Now, we'll address that later on in terms of 2009. What I 
wanted to take your time on today is to emphasize the need that 
when we have our supplemental up in another month and a half, 
or whatever it is, 2 months from now, we've got to put that 
money in there to restore the 2008 money. I'm sure all of you 
have probably talked to your local law enforcement people in 
your States. What I've heard, not only from my State but from 
other States, too, is that if this money is not restored--
they're now kind of running on fumes, so to speak.
    They've got some money left over from last year, some local 
jurisdictions have picked up and put money in there, but quite 
frankly, almost everyone I've talked to said if they don't have 
some money by July/August, they've got to start letting people 
go. They just won't have the money, period.
    And as has been said to me many times, in law enforcement, 
once you eliminate a program it's hard to start it up again. 
It's hard to hire back trained and experienced people if you've 
gone a whole year. It's hard to startup a wire tap. You've got 
a wire tap going, you have to end it. It's hard to start it up 
again. It's hard to reconnect with witnesses who, in this kind 
of an underworld, tend to drift around and move on, so they've 
gone to other States and you lose track of them. It's hard to 
recreate a whole year of maybe lost investigations.
    Again, keeping in mind that the Byrne program is the only 
one, the only Federal program, that funds these 
multijurisdictional efforts not only within a State, but across 
State lines. Again, I've emphasized that. But as you pointed 
out, Senator, there are other things, like the drug courts, 
that have been very successful in your State, my State, and I'm 
sure others.
    Gang prevention programs that Senator Feinstein talked 
about. Reentry programs. In-school programs where they've gone 
and sent officers and people in to schools to talk to kids 
about drug prevention programs. So it sort of really covers 
that whole waterfront.
    I've emphasized mostly drugs because the scourge of 
methamphetamine and stuff that's gone around this country, if 
it weren't for the Byrne grant program we would not have been 
nearly as successful as we have been in finding the sources of 
those drugs and in arresting and imprisoning so many people 
involved, especially in the methamphetamine area.
    Just, if I might, Mr. Chairman, in closing, say in Iowa 
what his would mean if we don't get the money in the 2008 
supplemental, it means that we would have to eliminate 15 of 21 
multijurisdictional drug task forces. Fifteen of 21. We would 
lose 39 of 59 personnel assigned and working in this area. 
Again, I point out that 85 percent of the drug cases in Iowa 
have come from these task forces. Now, again, we have the 
supplemental. I hesitate to point this out, but I feel 
compelled to do so. We have already spent $6 billion in 
security and law enforcement in Iraq. Six billion. All we're 
asking for is $490 million for some law enforcement and 
security in going after the druggers in this country.
    So again, I thank you all, all of you, Senator Coburn, 
Senator Biden, Senator Feinstein, who had to leave, all of you 
for your leadership in this area. This is one thing I hope 
where we can work across party lines and regional lines to get 
this money back in a supplemental. It's just vital--vital--that 
we get it in the supplemental appropriations.
    Thank you, Mr. Chairman.
    Chairman Biden. Thank you very much.
    Senator Chambliss?

  STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Chambliss. Thank you very much, Mr. Chairman. Let 
me echo what's been said relative to your recognition of law 
enforcement issues. You are a champion for law enforcement. 
It's been a pleasure to work with you, not just on this issue, 
but on other issues, too. You have made America a better place. 
So, thanks for your great leadership.
    Senator Feinstein, I just can't say enough about her. She's 
been such a great partner in working on this particular issue 
over the last couple of years. She, likewise, is a champion for 
law enforcement, not just in her State, but for every State in 
the country, and knows and understands the issues, is very 
articulate on the issues, and understands why we need the 
funding that we're asking for here, as well as otherwise.
    To my good friend, Senator Coburn, he is not only my 
colleague, he's a very close personal friend. Philosophically, 
we're on the same page most of the time. Senator Coburn is one 
guy that I really appreciate because of his recognition of the 
fact that this is a needed program, and this is one of those 
programs that we've got to find the funding for. He comes from 
a rural State, as do I. This is a program that has worked very 
well. I would just say that I agree with you in the sense that 
there are some situations where we tend to act as Big Brother, 
or Uncle Sam, by funding programs that maybe States ought to 
take care of.
    But in this case, as I will mention here in a minute, we've 
had experience across State lines with the State of Alabama, 
working on a specific program. So, interstate commerce is 
involved on a regular basis and I do think if it were not for 
this Byrne/JAG program, and for Federal participation in 
funding these grant programs around the country, that we simply 
wouldn't have had the success that we've had.
    I want to focus on the Byrne/JAG program and I want to talk 
about this program, Mr. Chairman, for two main reasons. First, 
because I strongly advocated for the program since arriving in 
the Senate. Second, because it is one of the most critical 
programs that received one of the most devastating cuts in the 
appropriation bill.
    The Byrne/JAG program is the primary provider of Federal 
criminal justice funding to State and local jurisdictions, and 
the funding supports all components of the criminal justice 
system, from multi-jurisdictional drug and gang task forces, to 
community crime prevention programs, to substance abuse 
programs, prosecution initiatives, domestic violence programs, 
and information-sharing initiatives.
    I will tell you that our law enforcement officials--our 
sheriffs, our prosecutors, our drug court professionals, and 
many other public servants in the law enforcement community 
rely on this funding to make our communities safer. The results 
they get with the Byrne/JAG funding are tangible and real. In 
my home State of Georgia, the Byrne/JAG funding program has 
been essential to fighting crime, drugs, and gangs across the 
State.
    I want to highlight a few successes in Georgia from the 
Byrne/JAG program during the 2006-2007 grant period. Multi-
jurisdictional task forces were able to make 5,600 drug arrests 
and seize almost $50 million in drugs. Twenty-five hundred law 
enforcement officers were trained in more than 100 different 
classes offered by the Georgia Public Safety Training Center 
through its drug enforcement training program.
    The Georgia Bureau of Investigation's State Drug Task Force 
led a cooperative investigation resulting with an interstate 
drug enforcement effort with the State of Alabama that received 
national recognition. The Georgia Information-Sharing and 
Analysis Center is Georgia's Homeland Security State-level 
fusion intelligence center. The center expanded its Southern 
Shield initiative and widened the focus for intelligence 
integration in the region by coordinating with 12 other States 
within the southeast on intelligence collection and 
dissemination. Nine drug court programs were supported, as was 
a mental health court diversion program.
    During fiscal year 2007 when the national funding level was 
at $520 million, the State of Georgia received $12.4 million in 
Byrne/JAG funding. If we cannot restore the funding that was 
cut in the 2008 omnibus, Georgia is projected to receive $4.6 
million. This difference of $8 million will make a huge 
difference in my State.
    Sheriff John Cary Bitick from Monroe County, Georgia was 
recently in Washington to urge that Congress find a way to 
restore this cut in funding. Sheriff Bitick is the former 
president of the National Sheriffs Association and has been 
very active on and off the Hill over the years.
    When we met, he told me that without restoration of these 
funds, 60 percent of the drug task forces in Georgia would 
disappear. These cuts are the scope that the drug task forces 
that rely on them cannot bring the gap until we complete the 
fiscal 2009 appropriations process.
    I am afraid that our rural areas will be most affected. My 
hometown is in a rural part of Georgia, down in the very 
southwest part of the State, so I know first-hand the 
challenges that small-town police chiefs and sheriffs face from 
a funding perspective. One great thing about the Byrne/JAG 
program is that the money is allocated so that 40 percent of 
the funding is distributed to local governments.
    In many cases, grants from the Byrne/JAG program are the 
only source of Federal funding for sheriffs and police in 
smaller communities. Immediate action is needed. I am pleased 
to join with so many of my colleagues to try to do just that in 
the supplemental appropriation bill that Congress is expected 
to take up this spring.
    I'm sure each and every member of this Senate has heard 
from a law enforcement official in their State about the 
importance of the Byrne/JAG program to helping them fight 
methamphetamine and other drug trafficking, as well as gang 
violence and other crime. I think this program enjoys such 
widespread bipartisan support here in the Senate because we 
know of the good results it produces. We know that for so many 
localities, this is where the rubber hits the road in terms of 
ability to tackle the critical tasks they face. Particularly in 
light of the new security environment in which we live in the 
post-9/11 world, as we call on State and local law enforcement 
to do more, we have to provide them with the resources they 
need to carry out their duties.
    I thank the Chairman for allowing me the opportunity to be 
here and to put this in the record, this critical information 
regarding the Byrne/JAG program in my State. I look forward to 
working with this Committee as we move forward with Senator 
Harkin and others to make sure that our law enforcement 
continue to have the tools they need to fight crime at the 
local level.
    Thank you very much, Mr. Chairman.
    Chairman Biden. Thank you for your testimony, gentlemen. I 
know you are very busy. I just would say, before I yield for 2 
minutes to my friend, or whatever he needs--my friend from 
Wisconsin, who is managing a bill on the floor, he may want to 
make a statement, if you could wait just a couple minutes.
    As we all know, we ended up with the omnibus bill, but you 
guys, out of your subcommittee, for the bill that we hoped had 
passed the Senate, $587 million for the COPS program as well. I 
know we're talking about Byrne grants today, but I hope I get a 
chance to talk to you fellows about the COPS program, as it 
received significant support in the Senate the last time out. 
But at any rate, I know you're busy.
    Senator Feingold?

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, for your 
leadership on this issue over the years. And thank you for 
chairing this important hearing. I, too, want to thank Senators 
Harkin and Chambliss for their hard work on this. This is as 
close to a consensus issue as you can find.
    I am also deeply concerned about the current state of 
Federal funding for grants that aid State and local law 
enforcement agencies, in particular the Byrne Justice 
Assistance grants and the COPS grants. The fiscal year 2008 
funding levels were far too low, and for fiscal year 2009 the 
President's budget proposal once again proposes to slash 
funding for these programs.
    This continues to be the number-one issue that I hear about 
from police officers, prosecutors, and other law enforcement 
officials in Wisconsin. Mr. Chairman, I know because I have 
held 30 town meetings already this year, and we have the record 
amount of snow in the history of the State of Wisconsin. We've 
had 100 inches of snow. These police officers and sheriffs come 
in whatever the weather, whatever the conditions, to tell me 
how worried they are about Byrne grants. It is the most 
consistent message that I'm hearing throughout the entire State 
of Wisconsin. They desperately need this Federal funding.
    If you think about the context in which these brave men and 
women are trying to keep our communities safe, the violent 
crime rate has been rising, particularly in Milwaukee. State 
and local agencies are being expected to do more and more as 
new Homeland Security responsibilities continue to crop up and 
other resources like the National Guard, on which these 
agencies used to be able to rely, are no longer available, many 
times, because of the war in Iraq. In the midst of this, 
Federal funding has been going down.
    Mr. Chairman, as you know, we have to help. I was deeply 
disappointed in the fiscal year 2008 appropriation for Byrne 
grants, which was just $170 million. This is a sliver of the 
authorized amount, which is more than $1 billion annually, and 
also a dramatic cut from the $520 million that Congress 
appropriated to Byrne grants in fiscal year 2007.
    In Wisconsin alone, this results in a $4.1 million 
reduction in Federal funds to State and local law enforcement 
between 2007 and 2008. Then on the heels of that, the 
President's new budget proposal eliminates funding for both 
Byrne grants and COPS grants, replacing them with new, woefully 
underfunded proposals. So the hearing is important and I look 
forward to working with you. Thank you, Mr. Chairman and my 
colleagues, for understanding that I am going to ask to put my 
full statement in the record. I regret I can't stay for all the 
testimony.
    Chairman Biden. Without objection, it will be placed in the 
record.
    Senator Feingold. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Chairman Biden. Thank you.
    Senator, do you have any questions for our colleagues?
    Senator Coburn. I just wanted to emphasize, I understand 
the cross-jurisdictional area and I am fully supportive of 
that. The drug task forces have been phenomenal. The point that 
I think you, Senator Harkin, made which we should not lose, is 
the unwinding of these drug task forces, you won't put back 
together for years because of the experience, the knowledge, 
the contacts, the informants, and everything else.
    So, the timeliness of what you're doing, I agree with. I 
think we've got to get it done and we've got to get it done to 
a certain extent. I think we also have to make sure we get the 
authorization done, since it hadn't been authorized since 2005. 
So we're appropriating on something that has no authorization, 
which we do to the tune of $280 billion a year right now and we 
ought to be authorizing it.
    Senator Chambliss. I would expect, Mr. Chairman, that 
Senator Feinstein and I will have our amendment in the budget 
process back on the floor in a couple of weeks.
    Chairman Biden. I look forward to that. As I told my staff, 
the bad news is for them, I'm back from Iowa, Tom, so I'm going 
to be paying a whole heck of a lot of attention to this.
    At any rate, thank you gentlemen for coming over. We 
appreciate your support very, very much, and your time. Thank 
you.
    Our next panel would be Mark Epley, Senior Counsel to the 
Deputy Attorney General. He's testified for the Department on 
the crime hearing last year. It's good to have you back, Mark. 
Thank you very much.
    As you can see, you have no opposition here. Everybody is 
going to love the fact you're eliminating Byrne grants. So I 
just want you to know, we'll provide you with Capitol Hill 
police protection out of the room, but not down the hall. So 
you're on your own, Jack. Anyway, all kidding aside, welcome, 
Mark. We're happy to have you here. The floor is yours.

STATEMENT OF MARK EPLEY, SENIOR COUNSEL TO THE DEPUTY ATTORNEY 
         GENERAL, DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Epley. Thank you, Mr. Chairman, Senator Coburn.
    As you mentioned, I came representing the Department last 
May and engaged in a dialog with this distinguished panel about 
the right role of the Federal Government in assisting State and 
local law enforcement with violent crime. I'm very glad to be 
back to continue this dialog, particularly in light of new 
crime statistics and the President's 2009 budget request.
    I'll just make two points. First, when we look at the crime 
statistics we see that there are a number of cities struggling 
with violent crime, but the data do not reveal nationwide 
trends or any particular case.
    The second point, is the Department's approach to 
strengthen partnerships with law enforcement, State and local 
law enforcement, and to target resources is well suited to the 
crime challenges that we see.
    First, as to crime statistics, the 2007 preliminary Uniform 
Crime Report from the FBI shows that the first half of 2007, 
violent crime went down 1.8 percent when compared to the 
preceding year. It's just a preliminary report, however, and it 
could change by the time the final comes. There are still 
struggling cities that are represented in the 2007 report, but 
it is nonetheless encouraging. But to get the best site view of 
the state of violent crime in America, you need to go to the 
final reports.
    Now, for some historical context. In 1992, the FBI measured 
sort of the all-time high in the rate of violent crime. Violent 
crime has been decreasing since then every year through 2004. 
In 2005, it went up 1.3 percent. In 2006, almost another 
percent. In our effort to understand what was going on, what 
caused this uptick, we looked closely at the numbers. We talked 
to the field, to academics.
    What we saw is that different sized cities were differently 
affected, different regions were differently affected. For 
example, when you look at 2005 and 2006 together, just 16 
cities are responsible for 50 percent of the increase in 
violent crime that was reported in 2005 and 2006. I'm happy to 
report that all those cities that applied for Department of 
Justice funds for a new grant program to support violent crime 
task forces received funding.
    Which brings me to my second point, that the Department's 
approach to strengthen and grow partnerships with State and 
local law enforcement, to target resources to communities to 
solve their particular problems, is best suited to the kind of 
crime challenges we're seeing.
    We've done that through the FBI Safe Streets task forces. 
We've done that through the ATF's Violent Crime Impact Teams, 
of which there are 30 around the country. We've done that 
through the U.S. Marshal's Fugitive Apprehension Task Forces, 
working with State and locals, the FALCON program. We've done 
that with Project Safe Neighborhoods. Adding prosecutors, 
giving small grants to local law enforcement, working together, 
we have doubled the number of gun prosecutions in the last 7 
years when compared to the preceding 7 years.
    We appreciate, though, that partnership does take 
resources. One of the ways that we support our partners is 
thorough equitable sharing. In this last year, the Department 
returned $410 million to our State and local partners. These 
are law enforcement agencies with whom we've done joint 
operations and the proceeds, the assets, and the cash seized, 
we pushed that back, a large measure of that back to our 
partners. But the other way that we support partnerships is 
through grants.
    As I mentioned, there's a new program that the Department 
financed last year. We invested $75 million in 106 communities 
around the country, investing in violent crime task forces. 
Those resources allow law enforcement to target, using 
intelligence-led policing, resources to the specific problem 
that that community has.
    So, in short, Mr. Chairman, we believe that the 
Department's budget this year has struck the right balance 
between investing in our core mission, defending against the 
threat of terrorism, and investing in our State and local 
partners in the most value-added way.
    Thanks again for the opportunity to be here.
    [The prepared statement of Mr. Epley appears as a 
submission for the record.]
    Chairman Biden. Well, thank you. I just have a couple brief 
comments and I'll yield to my colleague.
    You know, when we talk about crime I always find it 
fascinating. I've had this debate now for the last 30-some 
years. By the way, your returning to the local governments the 
money you're talking about is required by law, a law that I 
wrote about 18 years ago. The Federal Government didn't want to 
participate in it in the past. So it's not like it's largesse, 
you had no option, No. 1.
    But No. 2, the thing that fascinates me, and I wonder if 
you could comment on it, I thought our job was, State and 
local, to continue to reduce crime. The fact that crime may 
have now ticked up or gone down, we can argue about that. We're 
talking about, we still have, as of the statistics of 2006, 
1,417,745 violent crimes committed in the United States of 
America. Now, granted, that's down from a high of 1994, when 
the Biden crime bill passed, 1,857,760 crimes, but it's still 
1,417,745.
    Now if we could, just for the sake of discussion, by 
expending additional money bring that down to 1,300,000, you'd 
still have a heck of a lot of crime but you've taken over 
117,000 people out of the cycle of crime and being victimized. 
We had, this year, the total number of murders in the United 
States still at 17,034. We talk about that like it's good, like 
somehow we've met our objective. We only have 17,034 murders.
    So I guess what I'm trying to say to you is, we can argue--
and we will in exchanges of papers here--about whether crime is 
trending up or down, where it is, what the causes of it are, et 
cetera. But the bottom line is, you still have the last full 
report. You have 1,417,745 violent crimes, 17,034 murders, 
447,403 robberies. That's the United States of America, making 
us one of the most dangerous countries in the world. I mean, I 
find that--we accept it as that's good, we've met our goal, we 
only have 1.4 million violent crimes.
    The last point I'll make, and stop. I'm happy to welcome 
any comments you'd make, and I will not respond in the interest 
of time here. But the other thing is, I know probably a place 
where my friend Senator Coburn and I probably disagree is the 
role of the Federal Government. Sixty percent of all the 
violent crime in America is directly related to drug 
trafficking. I don't know, other than meth labs, and even there 
it doesn't exist--I don't know any place where it's a State 
responsibility.
    If I'm not mistaken, all those drugs come across the 
border. Almost all of them. Some are made here. Precursors come 
across the border. Not all of them. Not all of them. Heroin 
comes across the border. The bulk of the cocaine comes across 
the border. I kind of thought that was a Federal 
responsibility. What can the State of Iowa or the State of 
Oklahoma do about the border? What can the State of Delaware do 
about the border?
    So I just want to make the generic point, this notion of 
devolution of government and Federal responsibility, Federal 
responsibility seems to me to implicate an awful lot of State 
problems. So, for example, I'll bet you the States will make a 
deal. If we could just stop all the--if we could significantly 
improve the Federal portion of the deal, and that is keeping 
heroin and cocaine, just those two, out of the country, which 
is a Federal responsibility, I'll bet you they'd say, OK, we 
don't need any help. We don't want any of your help. You keep 
all the heroin out, you keep all the cocaine out, I don't need 
your help at all.
    So Federal failure sets up State problems, so that's why I 
argue that there is a role and responsibility for the Federal 
Government to be directly impacting on local law enforcement. 
But again, we will go into this argument more, but I just 
wanted to make those two generic points. I'd invite any comment 
you have. You don't have to. I'd invite any comment and I would 
yield to my colleague.
    Mr. Epley. Thank you, Mr. Chairman, for a chance to 
respond. You suggested that there is a difference of opinion, 
perhaps, over the rates of crime. Honestly, I don't know that 
we're that far apart. I think we both agree that there are a 
number of communities that are facing serious violent crime 
challenges. My sole point in that regard was that we don't 
perceive a nationwide trend. It may be that one point of 
disagreement, or at least a point of dialog that would be of 
great profit to continue, and that is, what is the best 
approach to violent crime.
    I do think, because you had indicated sort of the 
inextricably linked Federal, State, and local roles on things 
like drug control, crime control that's drug-related, related 
to illegal firearms. We can't do crime control without 
meaningful partnerships, Federal, State, local. I want to 
suggest that the Department's approach, represented by the 
President's 2009 budget, includes, for example, $200 million 
for violent crime task forces.
    Mr. Harkin mentioned that the JAG Byrne is the only source 
of multi-jurisdictional task force funds, and he's correct. If 
Congress were to authorize and fund the President's request for 
violent crime task forces, that $200 million could be speeded 
to communities that have particular challenges and would go to 
address their customized solution, if you will.
    Last year in the 2007 appropriations bill there was a good 
deal of money invested in the JAG Byrne program, and I know 
that State and local law enforcement made great use of it. As 
it happens, only $103 million ultimately ended up to support 
drug task forces. The balance went to other activities, drug 
courts and other very, very worthwhile activities. But even 
there, State administrating agencies, they had to make 
difficult choices about how to best apportion that money. So, I 
would just suggest that there's a great profit in continuing 
this dialogue about the best way to aid our State and local 
partners.
    Chairman Biden. The one thing I found after thousands of 
hours of hearings in the last 35 years, if there's going to be 
a crime committed in an intersection and there's three cops on 
three of the four corners, the crime will be committed where 
the cop is not. If anyone suggests to me that there's any 
evidence that by putting another 50,000 cops on the street 
we're not going to further reduce crime--forget trends, just 
further reduce crime in absolute numbers--I think defies what 
we have learned over the last 20 years.
    My generic point is, $200 million in Byrne grants, which is 
what you referenced, how they made good use of it, the request 
was for $570 million. If $200 million served well, $570 million 
would serve it better, unless you're arguing that there's not 
enough crime to go around. My generic point is, there's a whole 
lot of crime to go around.
    Anyway, let me yield to my colleague from Oklahoma. 
Senator?
    Senator Coburn. Thank you, Mr. Chairman.
    Just a couple of questions. What was the balance that the 
Justice Department carried over at the end of last year?
    Mr. Epley. I don't know.
    Senator Coburn. I do. It's $2.87 billion. For those who are 
not aware, the Justice Department is the only agency of the 
Federal Government that gets to keep their unobligated 
balances, a large percentage of them. No other branch agency is 
afforded that. It just comes to mind that we could probably 
solve the Byrne/JAG problem without doing a supplemental. We 
could probably do it very quickly with an authorization bill 
that we take a portion of the $2.87 billion in unobligated 
balances and immediately put $400 million into the Byrne/JAG 
grants.
    We don't have to have a supplemental appropriation, all we 
have to have is an authority to do that and a direction to tell 
the agencies to do that. So, that's an important thing to note. 
We know that because the Federal Financial Management Oversight 
Committee discovered this in the last 2 years, fifty-some 
hearings on waste, fraud and abuse in the Federal Government.
    The administration's recommendation is to zero out Byrne/
JAG grants. Why? You'd have to be up here defending it. You may 
not agree with that, but you have to defend it. So, let's hear 
you defend it.
    Mr. Epley. The approach that the Department has taken, and 
is represented by the 2009 budget request, is to target 
resources where they're most needed. So, for example, in the 
context of those 16 cities that in 2005 and 2006 drove half of 
the violent crime increase reported in those 2 years, all the 
cities that applied for task force grants received funding.
    Our strategy is to leverage our partnership with Federal 
resources, whether it be through Project Safe Neighborhoods, 
taking the worst of the worst offenders, processing them 
through the Federal system, including serving time in BOP, all 
of which costs Federal resources but relieves that community of 
a troublemaker, a violent person, and takes the State 
correctional costs away as well.
    We're looking for opportunities to leverage what we have, 
leverage our collective resources in the most effective way, 
and to target spending where it came make the biggest value 
added difference. The JAG program has been used and made good 
effect, but it's a formula program that every State, whether it 
has a particular present need, present crime problem or not, or 
community, gets a piece of this money.
    Now, Federal resources, even at its heyday, the greatest 
amount of Federal investment in State and local law enforcement 
grants only amounted to be about 4.5 percent of all State and 
local spending on police protection. So when our share is 
relatively small, our view is that we need to invest it in the 
most value-added way.
    Senator Coburn. Let me take issue with that for a minute. 
How many drug task forces did we have before we had Byrne/JAG 
grants? Not a lot.
    Mr. Epley. No.
    Senator Coburn. And 80 percent of them are going to go 
away.
    Mr. Epley. It's a very important--yes.
    Senator Coburn. Eighty percent of the drug task forces in 
this country are going to go away under the President's budget.
    Now, the question would then come, what's going to happen 
to crime, and the rate of crime, and serious crime, which we 
know a lot is related to drugs anyway, either in the 
trafficking or in the addicted personalities associated with 
that? What's going to happen? Are you all not penny wise and 
pound foolish on this to think that we could reduce the drug 
task forces in this country 80 percent and think that there's 
not going to be a large pop-up in the consequential action that 
we're not interdicting all these people?
    Mr. Epley. Senator Coburn, the President's 2009 budget 
request asked for $200 million for task forces, to support 
violent crime task forces.
    Senator Coburn. Why take something away that's working? Why 
are we taking away something that's working effectively? We 
have DAs, we have sheriffs' departments, we have U.S. Marshals, 
we have the FBI. We have them all working together in 
interdicting this. So, sure, you've got another program which 
is not authorized and you've got $200 million, and we've had 
$600, or $520 million in average in the last four or 5 years, 
so you're going to reduce it 60 to 65 percent and then redirect 
it with another bureaucracy? We've got a bureaucracy already. 
We've got one that we have to supply the answers to and the 
results to.
    The fact is, is the drug task forces are one of the keys to 
keeping some of our communities safe because so much of the 
other crime is surrounded around drugs. So to me, I don't 
understand. I know you have a tough job. You were sent up here 
to defend it. The point is, I think it's indefensible because I 
think that's a legitimate Federal role to aid in that because 
it's across State lines, and very often multiple States. In 
Oklahoma, sometimes it's three and four States at one time that 
are working together. So, I just would comment for the record.
    The other thing that I would put in, is one of the things 
Congress doesn't do is prioritize the funding well. That may be 
part of what your all's evaluation is. For example, Hawaii 
ranks fourth in funding, yet 41st in methamphetamine. But they 
get the fourth highest amount of money on methamphetamine, but 
they're 41st in terms of problems with methamphetamine.
    So, that tells you that we're not doing a good job and 
that's one of the things we ought to fix. I've made a career of 
trying to fix priorities within the Senate. I don't know how 
successful I'm being, but I'm sure being an irritant to a lot 
of my colleagues as I try to continue to do that.
    I thank you for your testimony. I think it's hard to come 
up here and defend this position. Matter of fact, I don't think 
it's defensible in terms of what's going to happen if we really 
do gut this program.
    Mr. Chairman, I think we ought to have a frank discussion 
with Senator Feinstein, and Senator Chambliss, and Senator 
Harkin, because I think we can do this more quickly than with 
the supplemental.
    Chairman Biden. I think you make a very good point, Senator 
I'm anxious to do that and I will call just such a gathering.
    Well, do you have any other comments you'd like to make?
    Mr. Epley. Just one note for the record, Senator Coburn.
    Chairman Biden. Sure. Please.
    Mr. Epley. You mentioned a pretty significant 10-figure 
amount of unobligated balances. I'm not sure what all is made 
up in that. If it includes, for example, the Crime Victims 
Fund, that--
    Senator Coburn. You all, in the last budget, decided you 
were going to take that and spend that money, even though 
it's--the administration has decided that they would take the 
money that's designed for crime victims and use it as part of 
your budget, which I adamantly object to. But you all did it 
anyway.
    Mr. Epley. Respectfully, both Congress and the 
administration, in assembling the budget request and 
appropriations, used that as an offset for spending. But leave 
that aside, I'm going to look at that. I think that those 
unobligated funds include things like witness fees, asset 
forfeiture funds, working capital funds, certain things that 
are part of our working budget.
    Senator Coburn. And the $100 million a year over which the 
Justice Department gets full discretion under how they want to 
spend it. It's not overseen by the Congress that you all get. 
Under a special case, the Justice Department gets that. No 
other agency gets it.
    So I'm not against you having it, but I am against holding 
$2.87 billion when we're struggling with task forces, when it's 
going to make a big difference on school children, young 
people, college students in this country who are multiply 
attacked with the enticement to become addicted to drugs. And 
it's not just the crime, it's the total cost to our society 
that's associated with it.
    Mr. Epley. Senator Coburn, we will go back and look at 
that. I just want to suggest that those funds support our core 
justice mission. It's not as if it's a bank account that we're 
keeping for a rainy day, those support current and ongoing 
operations.
    Senator Coburn. I understand. But I'll be happy to give you 
the continuing load of unobligated balances, which have been in 
excess of $2 billion now for seven or 8 years. If we've got $2 
billion sitting there floating through it, then we can find 
$400 million to go for the JAG grants.
    Chairman Biden. As they used to say in those old ``Smokey 
and the Bandit'' movies, what we got here is we got ourselves a 
communications problem. And what we got here is, you all got a 
problem, because when Senator Coburn and I, who don't often 
agree on a lot of things, agree, you all have got a problem. So 
I'd go back and I quickly find out where that $2.6 billion is, 
how much you need it, how much relates to the Crime Victims 
Fund. A guy named Thurmond and I fought for 7 years to get that 
Crime Victims Fund set up. You're right, Congress may have 
signed on with the administration on using that as part of the 
budget, but I think that's going to change pretty quick.
    Anyway, it's delightful to have you here. I'm sure you've 
enjoyed it.
    [Laughter.]
    Like I said, would any person wearing a uniform volunteer 
to escort the gentleman out? That's a joke, by the way. I 
wanted to get a little bit of humor here. But thank you for 
doing your job, Mark. You're here and I appreciate your 
testimony. I truly appreciate you coming up.
    Mr. Epley. Thank you, Mr. Chairman.
    Chairman Biden. It's not an easy position to defend. Thank 
you very, very much.
    Mr. Epley. Thanks.
    Chairman Biden. Now, our next panel is the Commissioner 
from a suburb of Wilmington, Delaware, Philadelphia, 
Pennsylvania. We have the Philadelphia, Pennsylvania 
Commissioner, Charles H. Ramsey. Prior to this appointment in 
Philadelphia, Commissioner Ramsey was the longest serving chief 
of the Metropolitan Police Department here in the District of 
Columbia. He's well known to many of us on this committee and 
in this Congress, and he was Commissioner of the Independent 
Commission on Security Forces on Iraq. We appreciate that, in 
my role in the Foreign Relations Committee. Chief, we 
appreciate you taking the time.
    From Delaware, we have the Chief of Police in the city of 
Dover. Chief Horvath also serves on the board of directors of 
the Delaware Police Chiefs Council, and is a member of the 
International Association of Chiefs of Police. Testifying on 
behalf of the National Association of Police Organizations is 
Anthony Wieners--pronounced ``Weiner'', as my staff points out 
here. I apologize if I mispronounce. You can call me ``Bidden'' 
if you like. Officer Wieners is a member of NAPO's executive 
board and an active officer, and he is also president of the 
New Jersey State Policemen's Benevolent Association.
    Gentlemen, thank you very much for your time here today. 
We're anxious to hear your testimony. Why don't we proceed in 
the order in which you were introduced?
    Commissioner?

     STATEMENT OF CHARLES H. RAMSEY, POLICE COMMISSIONER, 
   PHILADELPHIA POLICE DEPARTMENT, PHILADELPHIA, PENNSYLVANIA

    Commissioner Ramsey. Thank you, Mr. Chairman. I also want 
to thank you for all the support you've given law enforcement 
over the years. We have had a chance to work together on quite 
a few issues and you're always there whenever issues of concern 
come up with the law enforcement community, and I want to thank 
you for that, and all members of the subcommittee. Thank you 
for the opportunity to appear before you today to discuss this 
very important topic.
    My name is Charles H. Ramsey, and I'm currently the 
Commissioner of Police for the city of Philadelphia. Like many 
American cities, the city of Philadelphia has been struggling 
in recent years with an increase in many types of violent 
crime. We've had to endure these troubles at a time of 
declining support from the Federal Government.
    As you are all well aware, funding for the Byrne Justice 
program has been cut almost in half over the past 2 years, and 
funding for the COPS program has been nearly eliminated. Other 
funding sources have also been reduced dramatically, and I'm 
here to talk to you about the challenges we face and the ways 
that the Federal Government can help.
    With additional funds, we, like many other major city 
police departments, could increase the number of police 
officers on the street, enhance our technological capabilities, 
improve the training of our officers on the best practices of 
modern policing and rehabilitate our inadequate facilities.
    My testimony reflects what Philadelphia is experiencing and 
doing about violent crime, however, Philadelphia's experience 
is reflective of what other major cities are experiencing 
across this country.
    The Police Executive Research Form, or PERF, surveyed 56 
jurisdiction in 2005 and 2006 and reported that many cities saw 
homicides increase 20 percent or more. The results of 2007 were 
more promising in some cities, while others are still seeing 
increases in violence.
    On the day of his inauguration, Mayor Michael Nutter asked 
me to develop a crime-fighting strategy, which he and I 
delivered to the city on January 30th. The focus of the crime-
fighting strategy is a return to the basics of policing, 
combining what works from traditional crime fighting with the 
best of community policing. It is a bold, aggressive plan for a 
long-term, sustainable reduction of violent crime in 
Philadelphia.
    The strategy, which is already being implemented, has 
several components, including the following strategies: putting 
more cops back on the street; focus on the toughest 
neighborhoods--we found that 65 percent of our violent crime is 
concentrated in 9 of our 23 patrol districts--expand the use of 
technology that works in our fight against crime.
    The crime-fighting strategy is intended to achieve Mayor 
Nutter's goal of reducing homicides by 30 to 50 percent over 
the next 3 to 5 years. I believe that it can work, and the 
mayor, in his recently introduced budget, has given our 
department additional funds to implement the plan. However, 
major urban areas are feeling the effect of the recent downturn 
in the U.S. economy. Local and State tax revenues are 
declining, while there is an increasing demand for public 
services. Cities need Federal financial help in fighting 
violent crime.
    Let me briefly list some of the many ways that Federal 
resources could assist us in our efforts. For several years, 
the Federal Government provided funds to support the hiring of 
additional police officers. Between April 1, 1995 and August 
31, 1999, the city of Philadelphia hired 773 police officers 
under the COPS program. However, despite the efforts of you, 
Senator Biden, and others, the funding for that program has 
been drastically scaled back since 2002.
    As a result of this change and other challenges, the number 
of police officers on the streets declined for several years. 
Mayor Nutter, with assistance from Pennsylvania Governor Edward 
G. Rendell, is working to reverse this trend, and the fiscal 
year 2009 budget contains funding to hire new officers. 
However, the city has many demands on its limited resources. 
Federal support for the COPS program would enable us to get 
more desperately needed officers on the street.
    Basic aggressive community-based policing is the most 
important crime-fighting tool that a police department can 
implement, and this kind of policing requires up-to-date 
intense training of police officers in several techniques, 
including community engagement and targeted tactics such as 
stop-and-frisk.
    Community policing is a time-intensive process that 
requires a deep understanding of the neighborhoods we serve. 
Additional Federal funding would enable us to collect more 
sophisticated data about community conditions and needs and to 
enhance our training and community outreach efforts. Although 
our patrol officers are on the front line of our public safety 
system, technology also plays a crucial role in a comprehensive 
crime-fighting strategy.
    Because of declining resources, the Philadelphia Police 
Department is behind in its application of modern technology to 
prevent and solve crimes. There are numerous areas where 
additional funds to enhance our technology would make a major 
difference in our ability to protect our citizens.
    One example is surveillance cameras, which are excellent 
tools to document and prosecute criminals. In addition to 
serving these purposes, their mere presence has a dramatic 
deterrent effect, preventing crime in the immediate area. The 
fiscal year 2009 city budget includes funding for an additional 
250 cameras, but many more areas could be covered with Federal 
assistance.
    Another area in which the technology would improve public 
safety would be through enhancing our response to violent 
crimes by creating real-time crime centers and with the 
purchase of mobile rapid-response command centers. These units, 
which are used in many cities, would enable investigators to 
immediately access data bases to obtain the information needed 
to solve crimes. Such technology would greatly improve our 
ability to close cases, and equally important, to prevent the 
loss of any further life through retaliatory violence.
    Another area where additional resources would help us is by 
supporting improvements in the department's investigation of 
gun crimes. Criminals who use guns during the commission of a 
crime are a direct and imminent danger to our communities. The 
Federal gun laws have substantial penalties, which include 
mandatory minimum sentencing. Thus, the Philadelphia Police 
Department is working with the U.S. Attorney's Office and ATF 
to substantially increase the number of gun cases prosecuted at 
the Federal level.
    However, it is very difficult to make progress in this 
area, given limitations of the department's ballistic 
investigation system, which currently has a backlog of more 
than 6,000 pieces of ballistic evidence waiting to be tested. 
This impedes the department's ability to identify and prosecute 
offenders in a timely fashion. Additional Federal resources 
would enable us to get through this backlog and get guns off 
the street.
    Finally, the department, like police forces in many other 
cities, suffers from an overwhelming need for capital 
investment. Old, decrepit facilities and an aging and high-
mileage vehicle fleet hamper effective crime fighting and lower 
morale. A recently completed study by the Pennsylvania Inter-
Governmental Cooperation Authority concluded that the city's 
police stations and training facilities are among the most 
dilapidated publicly owned buildings in the city's inventory.
    Mayor Nutter has committed in the 2009 budget to make an 
investment to improve this situation, and the department is 
working with the city to develop a multi-year capital 
improvement plan to repair or replace aging police facilities, 
and an information technology plan to bring the department into 
the 21st century. However, without State and Federal resources 
it will take decades to bring our facilities up to modern 
standards. These are just a few of many areas in which 
additional Federal resources would make a major difference in 
the lives of our residents.
    As we all know, the daily assault of violent crime falls 
harder on some of us than others. The televised grief of family 
members devastated by a shooting seems to lead the news every 
evening. But even families untouched by violence and 
neighborhoods are tainted by mayhem and demoralized by death 
and disorder in our city. It is the job of the mayor, the 
police commissioner, and the whole police force to unite the 
resources of the whole community to calm the violence, restore 
order, and begin to build a tangible future for people who 
don't seem to have one today.
    Of course, homicide is often the end result of a series of 
negative and misguided actions, events, and decisions. Programs 
aimed at prevention, such as the Byrne Justice program-
supported Youth Violence Reduction Partnership, or YVRP, have 
had measurable successes in intervening in young people's lives 
and providing intensive services to those most likely to kill 
or be killed. We are thankful to Senator Specter for his 
leadership and recognizing the importance of disrupting the 
cycle of violence in the lives of our young people, and for 
securing funds for this program. However, with current funding, 
YVRP only serves a small percentage of our population. 
Additional Federal resources would help us achieve our goal of 
making the program city-wide.
    I should also mention that in Philadelphia we are working 
toward a holistic public safety effort that focuses not just on 
prevention, but the reentry of ex-offenders as well. 
Philadelphia Re-Entry Program, or PREP, provides incentives to 
businesses to employ ex-offenders, because the best crime 
prevention program is a job. We are, again, grateful to Senator 
Specter for recognizing the merits of this program and for 
proposing a similar initiative at the Federal level.
    Finally, we must not forget that our major urban areas are 
still terrorist targets. The belief is that the terrorists have 
not forgotten us, but are planning their next big attack. Local 
law enforcement officers will be among the first responders to 
a terrorist attack and may be the one to prevent an impeding 
attack.
    The local neighborhood terrorist is the focus of major city 
police departments, however, we are very much aware of our dual 
responsibility to neighborhood security and homeland security. 
We are stretched thin, and past homeland security funding was 
essential to bring local law enforcement up to the task of 
homeland security. Now is not the time to retreat on that 
commitment.
    Congress must fund the Law Enforcement Terrorism Prevention 
Program, LETPP, at $500 million and as its own line item. We 
also need stability in the urban areas covered under the Urban 
Areas Security Initiative, or UASI, for planning and 
sustainability. Local law enforcement officers have proven they 
can fight neighborhood crime and prevent and respond to 
terrorist attacks, but we need your help. No community 
prospers, or even survives long, without safety.
    Safety is why people come together to govern themselves in 
the first place. Just as providing for the common defense is 
the fundamental obligation of our national government, it is 
the very first obligation of local government, is to protect 
the lives of its residents. Mayor Michael Nutter and I have 
committed to making the safety of every Philadelphian a 
priority for this administration, and like other cities we 
could use some help in doing this.
    So, Senator, again, I want to thank you for putting 
together this hearing on this very important and vital topic. I 
also want to thank other members of the Committee as well. 
Thank you.
    Chairman Biden. Thank you, Commissioner.
    [The prepared statement of Commissioner Ramsey appears as a 
submission for the record.]
    Chairman Biden. Chief?

  STATEMENT OF JEFFREY HORVATH, CHIEF OF POLICE, DOVER POLICE 
                  DEPARTMENT, DOVER, DELAWARE

    Chief Horvath. Thank you, Senator. Chairman Biden, I would 
like to thank you for allowing me to speak here today. I 
consider it an honor and a privilege. As you already know, 
being from Delaware, I'm the Chief of Police at the Dover 
Police Department. I also currently serve on the board of 
directors of the Delaware Police Chiefs Council, and I am the 
second vice chairman of the Delaware Police Chiefs Foundation. 
I also serve as Delaware's representative to the State 
Association of Chiefs of Police, known as SACOP, which is a 
division of the International Association of Chiefs of Police.
    I'd like to think that I'm not just here representing the 
91 sworn men and women of the Dover Police Department, but that 
I'm also representing the Delaware Police Chiefs Council and 
the smaller departments of the State of Delaware.
    Dover is the capital of the first State, and Dover Police 
Department is the fourth largest police department in the 
State. Our jurisdiction consists of 29 square miles, and I can 
state with absolute certainty that the use and sale of illegal 
drugs is the greatest challenge for the men and women of my 
department. A majority of our serious and violent crimes are 
directly or indirectly related to the use and sale of illegal 
drugs.
    In the 1990s, there was a violent crime crisis across this 
country. This crisis also affected the city of Dover. In the 
1990s, the rise in violent crime peaked, with a 73 percent 
increase in Dover. The COPS program helped communities like 
Dover to put more police officers on our streets and in our 
schools. Over the next few years, we saw violent crime drop by 
35 percent in Dover alone.
    Since I became the Chief of Police in March of 2001, I have 
been able to increase the authorized strength of the police 
department from 81 sworn officers to 91 sworn men and women. 
Six of those officers were funded by the COPS program; four of 
the funded officers were added to patrol our streets and our 
neighborhoods and two were placed into our schools to work as 
school resource officers.
    Capital School District was the last school district in the 
State of Delaware to get a school resource officer in its high 
school. We could not have done that without COPS money. There 
is no measure to properly show the value of these officers. 
Without a doubt, the addition of these six officers has made 
the Dover Police Department a stronger force.
    Unfortunately, violent crime is back on the rise. In the 
last 2 years alone, violent crime has risen 30 percent in 
Dover. I'm pretty sure Dover is not one of the 16 cities across 
the country that has increased the national violent crime 
percentage, but we are seeing it in Dover. It is important that 
we get back to basics.
    There are departments in the State of Delaware and across 
the country that need more police officers on the streets, 
equipped with the tools and resources needed to keep our 
community safe. The best way to help us is to fully fund the 
COPS program. Since September 11, 2001, the Federal focus has 
been taken off of street crimes and has eliminated funding for 
COPS hiring. Much of the funding has been moved to the 
Department of Homeland Security.
    While I support the need for increased homeland security 
funding, I think it is vital that we don't forget our most 
important security function, which is hometown security. As I, 
and many other chiefs before me have stated, hometown security 
is homeland security. Local law enforcement has demonstrated 
this on numerous occasions.
    Law enforcement is being asked to do more with less. If we 
have fewer police on the streets to prevent crime and to 
protect our communities, we will see a rise in crime across 
this country. That is inevitable. The COPS program used to be 
funded for over $1 billion. It has been cut to $20 million this 
fiscal year, in fiscal year 2008.
    The President's proposed budget for fiscal year 2009 would 
completely eliminate the COPS program. As a police chief, I 
consider this to be an irresponsible approach to policing in 
the United States. COPS grants have funded 463 additional 
police officers to engage in community policing activities, 
including crime prevention, in Delaware.
    Local and State law enforcement agencies in Delaware have 
directly benefited from funding made available through the COPS 
office. Nearly $1.6 million has been awarded for 13 school 
resource officers to improve safety for students, teachers, and 
administrators in primary and secondary schools throughout 
Delaware. Over $10 million has been awarded for crime-fighting 
technologies which have allowed officers to spend more time on 
the streets of Delaware, fighting and preventing crime through 
many time-saving technologies, information-sharing systems, and 
improved communications equipment.
    The Byrne Justice Assistance Grants were previously funded 
at over $900 million before the current administration took 
over. For fiscal year 2008, this funding has been cut by 67 
percent, from $520 million to $170 million. The President's 
proposed budget for fiscal year 2009 eliminates the Byrne/JAG 
funding completely. These proposed cuts would jeopardize 
numerous programs in Delaware which could affect the quality of 
life for our citizens.
    I just also recently learned that funding supporting the 
Regional Information Sharing Systems, known as RISS, has also 
been cut. I think that is also a huge mistake. That is a key 
piece to law enforcement across the country.
    In closing, Federal grant funds have been extremely 
important to local law enforcement agencies in Delaware and 
across the country. My department alone has received over $1.2 
million in Federal grants over the past 10 years. These funds 
have greatly assisted the Dover Police Department in its 
mission to protect the citizens and visitors of Dover, 
Delaware. By properly funding the COPS programs and the Edward 
Byrne Memorial Justice Assistance Grant programs, we will be 
able to better ensure success of our law enforcement efforts in 
preventing and reducing crime.
    On a personal note, Senator, from all the chiefs in the 
Delaware Police Chiefs Council and from the Dover Police 
Department, I would like to thank you for your undying support 
to law enforcement.
    Chairman Biden. Well, thank you very much.
    Mr. Wieners, welcome.

   STATEMENT OF ANTHONY F. WIENERS, EXECUTIVE BOARD MEMBER, 
   NATIONAL ASSOCIATION OF POLICE ORGANIZATIONS, ALEXANDRIA, 
                            VIRGINIA

    Mr. Wieners. Good afternoon, Mr. Chairman. My name is 
Anthony Wieners. I'm a detective with the Belleville, New 
Jersey Police Department. I also serve as the president of the 
33,000-member New Jersey State Policemen's Benevolent 
Association, and I am an executive board member with the 
National Association of Police Organizations, which represents 
238,000 sworn law enforcement officers throughout the country.
    I'd like to thank you for the opportunity for being here 
today, but on behalf of every law enforcement in this country 
I'd like to thank you for your passion and dedication to our 
cause over the years that you have served.
    Chairman Biden. Thank you.
    Mr. Wieners. The duty of every law enforcement officer in 
America is to serve and protect the peoples of our community. 
As such, we need the manpower and tools to do our best to fight 
crime, and as part of the national crime-fighting strategy we 
require the full support of the Federal Government now more 
than ever.
    I am here today because State and local law enforcement 
officers in America are being dangerously short-changed. Our 
officers are passed over for critical funding to assist them in 
combatting and responding to crime and terrorism. Crime is on 
the rise and we need the resources to fight back now. I know 
the Committee understands the history of the COPS program and 
the Byrne/JAG program, however, I would like to take this 
opportunity to briefly explain their significance to State and 
local law enforcement officers in the fight against crime.
    Local law enforcement has more knowledge about crime in 
their jurisdictions than our Federal counterparts, making us an 
essential part of the national strategy to combat crime. It is 
not a coincidence that community policing was at its best and 
national crime rates were at their lowest when Federal support 
for the programs such as COPS and the Byrne/JAG program and 
local law enforcement block grants was at its peak.
    It is also no coincidence that the steep reduction in 
Federal support for these programs has been followed by an 
increase in violent crime rates nationwide. In fact, a December 
2001 study by researchers at the University of Nebraska at 
Omaha found that the COPS program is directly linked to the 
historic dropping of U.S. crime rates in the 1990s.
    The ``More Cops Equals Less Crime'' statistical analysis 
produced by yourself, Senator Biden, together with Congressman 
Anthony Weiner, provides further evidence to the link between 
the COPS grants and the decrease in crime from 1995 to 2000.
    According to the ``More Cops, Less Crime'' evaluation, the 
effects of the COPS grants from fiscal year 1994 to fiscal year 
1999 on violent crimes, during that 1995 to 2000 period, were 
substantial. During that time, approximately $2 billion was 
provided nationally in hiring grants, and over $3.6 billion was 
provided in innovative grants to cities with populations over 
10,000. Nationwide, police departments in these cities reported 
that violent crimes were decreased by well over 150,000 
incidents between 1995 and 2000.
    As the New Jersey State PBA includes over 350 Locals across 
the State, representing municipal, county, State, and Federal 
law enforcement officers, we are in a unique position in 
regards to the needs of law enforcement in the community.
    The Uniform Crime Report maintained by the New Jersey 
Attorney General over the same period, 1995 to 2000, showed 
dramatic drops in every category of crime. It is not a 
coincidence that this occurred roughly at the same period New 
Jersey was granted over $293 million in COPS funding, and 4,563 
officers hit the street.
    The current administration has been vocal in its dismissal 
of these important programs. It has repeatedly proposed steep 
cuts to COPS and Byrne/JAG programs, with the COPS hiring 
initiative receiving the brunt of the cuts. Since 2000, funding 
for the Byrne grants have been cut by more than 83 percent, 
from $1 billion to $170 million in fiscal year 2008.
    COPS programs have been cut by more than 43 percent, from 
more than $1 billion to $607 million. This fiscal year 2008 
level includes $20 million for COPS hiring initiatives, which 
has been zeroed out in previous fiscal years. Twenty million 
will allow for the funding of approximately 500 officers 
nationwide. While better than no funding, this is not enough to 
make a real impact.
    Through my work as a NAPO board member, I know that the 
loss of needed Federal support through the Byrne/JAG program 
not only adversely affects law enforcement in New Jersey, but 
also officers and agencies from around the country. These cuts 
will result in closing many drug and gang task forces in 
California, Nevada, Texas, and throughout the midwest at a time 
when these forces are making tremendous strides in the fight 
against methamphetamine.
    States and municipalities will have to lay off law 
enforcement officers, as they are currently doing in New 
Jersey, because of tightened budgets and due to lack of Byrne/
JAG money. Additionally, cold case units, identity theft 
investigations, school violence prevention programs, and victim 
and witness protection services are all feeling the strains of 
these cuts.
    NAPO and the New Jersey State PBA are truly concerned about 
the steep decline in funding for vital State and local law 
enforcement assistance programs that have occurred since fiscal 
year 2002, particularly in light of additional duties taken on 
of law enforcement post-9/11.
    Today, local police departments, already understaffed due 
to lack of resources to hire new officers, must place officers 
into drug, gang, and terrorism task forces, as well as protect 
critical infrastructure during periods of heightened national 
threat advisory levels, often at the expense of street patrols.
    Additionally, many cities and municipalities, because of 
tight budget constraints, are forcing officers to take on 
counterterrorism duties on top of their community policing 
duties and to their responsibilities while patrolling the 
streets.
    For example, the Los Angeles Police Protective League, 
another NAPO member organization, has reported that the Los 
Angeles Police Department is mandated to redeploy officers to 
protect infrastructure, staff terrorism task force, and take on 
counterterrorism duties, and patrol units suffer. The Los 
Angeles Police Protective League attributes the rise in gang-
related homicides that city has seen to the lack of resources 
the police department has to cover the holes in community 
policing and gang deterrents caused by the new terrorism 
duties.
    According to the FBI, in the semi-annual Uniform Crime 
Report which was released in December of last year, there was a 
steep increase in violent crime the first half of 2006. These 
results followed the 2005 Uniform Crime Report, which up to 
this point has marked 2005 as the highest rise in crime rate in 
15 years. State and local law enforcement agencies are 
struggling to meet the needs of their communities, and due to 
increased duties, have diminished Federal assistance and 
support.
    With police departments in this Nation's cities and 
municipalities under-staffed and over-worked, the national 
crime rate is at the highest level in 15 years. How can 
Congress and this administration justify cutting or eliminating 
grants under the COPS program and the Byrne/JAG program?
    Over the past 15 years, local law enforcement officers and 
the agencies they serve have made tremendous strides in 
reducing levels of crime and violence in our communities. This 
success was largely part of the much-needed assistance and 
support provided to them by the Federal Government. The severe 
cut in funding suffered by the COPS and Byrne/JAG programs is 
already beginning to dismantle the progress law enforcement has 
made in the fight against crime.
    The correlation between the substantial decreases in 
Federal funding for the Justice Assistance Programs and the 
sharp rise in crime over the past several years can no longer 
be ignored. It is the tools provided to the State and local law 
enforcement by these programs that have improved information 
sharing, cooperation between departments and agencies, 
equipment and training, which in turn has led to more effective 
law enforcement and safer communities. I want to once again 
thank you, Senator Biden, for the opportunity of being here 
today, and I ask that my printed testimony be made part of the 
record.
    Chairman Biden. Thank you very much. It will be. Each of 
your formal statements will be made a part of the record.
    [The prepared statement of Mr. Wieners appears as a 
submission for the record.]
    Chairman Biden. Gentlemen, we have got an opportunity here 
to have a conversation, so I don't want this to be formalized, 
since there aren't any of my colleagues here.
    Let me start off by saying three things, and maybe we can 
speak to some of what I raise based upon your experience. I 
have a different starting point, and I have for 30 years. The 
reason I wrote the crime bill in 1995--and I might add, as you 
remember, Commissioner, you guys helped me write the crime 
bill, although I was criticized for bringing in a bunch of 
social workers to write the crime bill. They're good people. My 
daughter is a social worker, used to work in your city. The 
truth was, it was cops that sat around my table for months. 
Scott Green was the guy who helped put this all together for 
me. So it wasn't a bunch of people who were naive about crime. 
These were hard-nosed cops.
    They said to me back then, there were three things that 
were critically important: 1) you needed more. Simple, more. I 
mean, I notice there are certain things--all these years I've 
held hearings, I mention one about cops not on the corner where 
the crime will be committed.
    I also notice violent crime drops the older you get because 
it's harder to run down the road and jump that chain-link fence 
while you're being chased, you know. I mean, so certain things 
impact on crime. We try to make this very, very sort of 
esoteric, kind of like what I do these days, foreign policy. We 
try to make it sound like we're really important because 
they're complicated subjects. Some of this is pretty basic 
stuff.
    Let me start off by saying that the premise I start from, 
if crime does not go down every year, we're failing. Let me 
start off and say that again. My measure of success, what I 
think my job is, is to provide law enforcement organizations, 
federally and nationally, enough resources so that they can 
continue to reduce crime every year. Every year. Every year. If 
it goes up 1 year, we failed. We failed to give you the 
resources.
    So I want to set it straight for anybody who is listening 
here. For me, what I'm going to be focusing on again now that I 
have the opportunity, is to deal with constantly reducing the 
number of Americans who are victimized by crime. Technically, 
ideally, we only succeed when there's no crime committed. Now, 
we can't do that, but that's the objective. So I have a 
fundamental disagreement with the administration on the notion 
of when it warrants stopping spending on fighting crime or 
drastically reducing Federal spending.
    The second point that I will make, is this notion that 
there's not a Federal responsibility. Aramingo Avenue, where 
you have to spend a lot of your resources dealing with the drug 
problem, those drugs being sold there, they weren't grown in 
south Philly. They weren't grown in the northeast. They weren't 
grown in north Philly. They didn't come out of Wilmington or 
Camden, New Jersey. That's not where they were grown. You can't 
do a thing about that.
    What are you going to do about the drug cartel in Colombia? 
What are you going to do about 94 percent of the world's heroin 
coming from the place I just landed in accidentally in, in the 
mountains of Afghanistan? So I don't understand why this is 
called a local problem. It's not just drugs. A chief can't 
affect anything that happens. A lot of the folks are coming 
down from Aramingo Avenue into Dover. He can't do anything 
about that. So the second point I want to make is, I do think 
there is a significant Federal role, a legitimate Federal role 
under the Constitution.
    The third point I want to make to you, in the context of 
asking the few questions I have for you, is that we know it 
works. It's not like we haven't figured it out. It's not like 
we have to go out and reinvent the wheel. What do we do? What 
you guys and women told me in writing in that 1994 Biden crime 
bill was simple. That was that there's a direct correlation, as 
you mentioned, again, Commissioner, between having someone 
walking a beat on the street knowing the neighborhood and 
driving down crime.
    Why? The woman is going to come out and tell you who the 
dealer is in the corner if she knows they're not going to come 
back, if she knows the cop she's dealing with, if she has some 
relationship with the Philadelphia Police Department. You do 
that in Dover, Chief. They know you have a particular officer 
who's in a particular neighborhood. Newcastle County police do 
that as well. But it's getting harder. It requires more 
intensive use of manpower.
    I remember asking you guys back in 1988 when I started to 
write this bill why you don't do more community policing, why 
you've got guys riding through with a single person in a 
cruiser through a though neighborhood. They say, hey, it takes 
more resources. So the public has to understand, if you want to 
drive down crime, community policing being a big part of that, 
you need more resources, not fewer resources. So those three 
propositions are the place from which I reintroduced this 
omnibus crime bill, again.
    So the first thing I want to ask you, and this is kind of 
in a sense a set-up question. I think I know your answer. Do 
you disagree with any of those propositions, that success in 
your department--you feel success when you're driving down 
crime, not when it's staying static or when it's going up? Is 
that a fair statement?
    Chief Horvath. Yes, sir, that is a fair statement.
    Chairman Biden. And I know it's not within your power all 
the time. It's not your fault when crime goes up.
    The second thing is that the idea that if in fact it is, 
there is a Federal responsibility here. You don't have the 
capacity to figure out what comes across the river in New 
Jersey, do you?
    Commissioner Ramsey. No, sir. I mean, crime is everybody's 
responsibility, including the Federal Government. In listening 
to the testimony from the previous panel, I almost had to 
chuckle a little bit, the way in which they were interpreting 
crime stats and so forth. I think you're right on target on 
your first point. The key to fighting crime is being absolutely 
relentless at going after the people that will cause harm in 
our communities. You don't let up.
    If crime is going down, then you put more resources to get 
it down even further. You don't wait until you start to see 
that uptick, then you're right back where we were in the late 
1980's and early 1990's, where crime was off the hook and we 
had to take extraordinary measures in order to bring it back 
under control. Now is the time to continue to drive it down, 
and that's exactly what's not happening in terms of the way in 
which this is being funded.
    Mr. Wieners. I think New Jersey is unique in itself, being 
in the footprint, if you will, or the shadow of the World Trade 
Center and the tragedy that happened there. We have probably 
the largest port on the East Coast. Our officers have been 
taking on a lot of the responsibilities that should be Federal 
Government, and in turn not paying attention or, because of 
resources, not putting their time into the communities and the 
areas which we serve.
    Chairman Biden. When the Federal Government goes to Code 
Orange you end up at the Tacony-Palmyra Bridge, or you end up 
at the Walt Whitman Bridge, or you end up looking at what's 
going at Dover Air Force Base, you end up deciding what's going 
on in the Lincoln Tunnel, coming through into New Jersey, do 
you get paid by the Federal Government for that? Do they pay 
you overtime, your cops that you deploy, your police officers?
    Mr. Wieners. I don't believe so. No, I don't believe so.
    Chairman Biden. How about you, Commissioner? Do you get--
    Commissioner Ramsey. I don't know about Philadelphia, but 
in Washington we could apply. If it went to Code Orange, we 
could apply for the overtime funds that were expended during 
that period of time and we tracked our costs independently. I 
would assume that's the case in Philly as well.
    Chairman Biden. Now, let me ask you about--can you tell 
me--you may not know for certain, but what's your explanation, 
Commissioner, as to why the crime rate, the murder rate, in 
Philadelphia is up so much? I commute every day. I get nothing 
but Philadelphia television, and I complain about that. But 
everything that Philadelphia hears, we hear in Delaware. We 
don't have a private television station. I don't think there's 
a night that goes by that you're not in the street trying to 
figure out how you deal with a murder that's occurred. I know 
the mayor is absolutely committed to doing something about it. 
But what's your explanation as to why the murder rate is up in 
Philly so significantly?
    Commissioner Ramsey. Well, we've had 47 murders so far this 
year and it's only February 27th. Now, that's actually down 
from last year. Last year at this time we had 60. It's a very 
violent city in pockets. We have a lot of people that have no 
regard at all for human life. The availability of handguns is 
not helping the situation.
    What we're finding is more and more people are getting 
killed over very trivial matters. We had a young man, 16-year-
old boy on his birthday, killed because he hit someone with a 
snowball. The person got angry, got a gun, and shot and killed 
him. I mean, just senseless crime that's taking place. So to 
think that violent crime somehow is better, the streets are 
very violent. I had six officers shot last year, one killed, 
breaking up a robbery. That's what's going on, the reality of 
what's going on in the streets of our city. That's not 
reflected in numbers.
    It's far too much violence taking place on our streets, so 
whether the numbers happen to be up today or down today, 
there's still far too much crime and violence in our cities, 
Philadelphia being one of them. I'm joined here today by the 
chief from Montgomery County, Maryland. Tom Manger is in the 
audience, and Gil Krowakowski, the chief in Seattle, 
Washington. We've had conversations about this, all the major 
city chiefs.
    We're very concerned about what we see is an emerging trend 
that is going to put us all in a very, very difficult 
situation, if not this year, certainly next year. We know what 
we're looking at. We have all done this for a considerable 
period of time. I'm in my 39th year. I know what I'm looking 
at. You can interpret numbers any way you want: the streets are 
getting more and more dangerous. Now is not the time to stop 
funding, to reduce funding. Now is the time to put more 
resources into policing, not less.
    Chairman Biden. Now, you represent the fifth largest city 
in America, you represent one of the smaller cities in America 
in terms of--your total population in Dover, roughly?
    Chief Horvath. Residents, about 35,000.
    Chairman Biden. Thirty-five thousand. Is the murder rate up 
in Dover or down?
    Chief Horvath. No. We average about two homicides a year. 
But as I said in my statement, violent crime is rising. It's 
gone up 35 percent in the last 2 years.
    Chairman Biden. To what do you attribute that?
    Chief Horvath. Senator, I don't know. It's some of what the 
Commissioner said. It's a different attitude, a disregard for--
I can't say life, because I don't have the homicides that 
Philly has, but it's a disregard for the law and a disregard 
for doing the right thing. That's causing our violence. Almost 
all of our problems, as I testified to, are drug-related, in my 
opinion, either indirectly or directly, whether it's a turf 
war, this is my corner, not yours, or just a disagreement on 
funds, illegal funds from drug transactions, or whatever it may 
be.
    Chairman Biden. Mr. Wieners, you represent the whole State 
of New Jersey here. I'm pretty familiar with Camden. I'm pretty 
familiar with Atlantic City. South Jersey, I have some genuine 
familiarity with. Camden is a pretty rough place these days, 
has been for a while. When you guys--I'm just trying to get a 
sense. I'm not looking for a criminologist response. I'm 
looking for, when you sit down with your colleagues, what do 
you talk about? I mean, what do you attribute this apparent 
attitudinal change, the actual--because there's a sense--every 
cop I talk with, even in communities that--look, because I've 
been so aligned with you guys for so long, literally there's 
not an airport where I got off a plane, no matter where I am, 
that if your guys--and I don't tell them I'm coming. I'm not 
one of these guys that calls anybody.
    Ask the guys in Delaware. I never ask for an escort, I 
never ask for a ride, I never ask for--but because I've been so 
associated with you for so long and I know so many of you, no 
matter what city I land in, there's somebody in the police 
department, whether it's the airport police or whether it's the 
local city policy or State police, that come up and say 
something to me and ask if I need any assistance. I always ask 
them, what's going on?
    I haven't found anybody yet who doesn't think that they 
just have the feel things are going downhill, not uphill, even 
in cities where the crime rate isn't going up statistically. 
I'm not making this up. I'm not making this up. I realize it is 
not evidence. But I'm wondering, and I know this sounds strange 
in a committee hearing to ask you, when you sit with your 
colleagues in New Jersey, what do you talk about?
    Mr. Wieners. I think the number-one problem that we 
discuss, and it's not a local level, it's a national level, is 
gangs. Along with that, you have the drug trade and you have no 
value for human life. Our officers are out there dealing with 
it. Last year, the UCR, Uniform Crime Reports, statistics have 
57 of my officers in New Jersey who were assaulted with a 
firearm. There's too many firearms out on the street. The gangs 
are out of control. Along with the gangs goes the narcotics 
trade. There's no value for human life.
    Chairman Biden. Again, Commissioner, it's hard for you to 
answer this because you've only recently been in Philly. You 
may or may not have an answer. so I understand you may not. But 
if I were to ask your management corps wearing uniforms 
throughout the city whether or not they're getting more or less 
cooperation from the citizenry, people who aren't committing 
crimes, compared to 10 years ago, what would they say? What do 
you think they'd say?
    Commissioner Ramsey. Well, I can answer that question. It 
depends on the community that you're talking about. This whole 
``stop snitching'' campaign has really taken root in many of 
our communities, unfortunately. I worked in homicide 20 some-
odd years ago and if there was a murder in a community--not 
every community, but in most communities--finding witnesses was 
not all that difficult to do. Now it's very difficult. We have 
crimes committed in broad daylight with a street full of 
people, and nobody will come forward. So it's becoming more and 
more difficult depending on the area that you're in and the 
nature of the crime that's been committed.
    Last question in this vein. Again, Mr. Wieners, you may be 
able to speak to this better than anybody because of the 
national board you're on. We had the actual statistics. I'd 
just like to talk about this for a minute. Has the trend been 
for police departments, large and small, in the last--since 
2001, to move not out of, but away from, community policing as 
we all four know it, or increasing the commitment to community 
policing? What's the trend been?
    Mr. Wieners. Well, I could talk from New Jersey and 
surrounding States. Moving away from community policing because 
resources are needed elsewhere, especially in New Jersey with 
the counterterrorism and protecting infrastructure. We need 
help.
    Chairman Biden. How would you characterize it, 
Commissioner?
    Commissioner Ramsey. I think that the concept has morphed 
into something that is a bit different today. I wouldn't say 
that we've moved away from it. Intelligence-led policing, using 
more technology to be able to pinpoint where it's occurring, 
when it's occurring, and deploying our resources accordingly, 
but partnerships and collaboration is still a big part of what 
we do in Philadelphia and it's a big part of what we did in the 
District of Columbia. Those are fundamental to community 
policing. We've stopped calling it that, pretty much. It's just 
pretty much the way we deliver police services. But the concept 
itself, and many aspects of it, is pretty much intact.
    Chairman Biden. Chief, what would you say, talking about 
Delaware, and Dover in particular?
    Chief Horvath. Talking about, for Dover, we still have a 
core community policing unit which goes out into the community 
and tries to make the contacts and get known by the residents. 
However, I agree with the Commissioner, too. You try to do that 
type of policing with even the patrol officer. There's nothing 
more valuable to any police department in this country than a 
patrol-level police officer in a car. So the trend, I think, 
for a lot of departments is maybe not to have a community 
policing unit, but to have a community policing patrol officer, 
if that makes any sense.
    Chairman Biden. Commissioner?
    Commissioner Ramsey. And I would just add one thing. The 
real challenge, sir, is with a lack of resources, to have the 
kind of continuity of assignment in neighborhoods that you 
would like to have. Our officers are starting to revert back to 
running from call to call and not really having an opportunity 
to put to use many of the things they've learned and the things 
that they know work as it relates to community officers. You 
know, having an officer on foot patrol, it's a great idea, but 
when you've got a backlog of calls you've got to put them in a 
car so they can start to reduce that backlog. So the challenge 
is really having the resources to implement it properly, but we 
are all still believers. At least, most are still believers.
    Chairman Biden. The reason I raise it--I'm glad you said 
that. I was going to come to that point. That's my observation. 
I know one of the Attorneys General in our State. He's trying 
to implement community prosecution teams and he's having some 
difficulty doing that, again, relating to resources, not so 
much the resources that he may be able to get, which is 
difficult, but to have a corresponding officer who would be 
part of that.
    Initially, back in the 1990s when the crime bill--by the 
way, let's put this in perspective. We have reduced the amount 
of assistance to local law enforcement by over $2 billion since 
2002. No matter how you cut it, no matter how you slice it, no 
matter what you do, there's $2 billion less going from the 
Federal Government directly to local law enforcement. I mean, 
that's just a fact. So it gets harder, because the thing I 
wanted to hear you say, Commissioner, is that when you've got a 
guy, you've got a reduced number of people and you've got calls 
coming in from all over the territory he or she is covering, 
the idea, she's still stopping in Johnny's Sandwich Shop, 
showing up at the local community meeting that evening and 
doing all the rest, it just gets very, very difficult. One of 
the biggest disappointments I had, one of the proudest 
achievements--achievements--one of the things I sponsored I'm 
most proud of was the school resource officers. What people 
didn't get, was I wasn't looking for a cop with a gun to shoot 
bad guys who would come in with a gun. That's pretty hard stuff 
to do.
    But what it was, I found, is whether it was in Dover, or in 
Wilmington, or whether it was in Hatboro in New Jersey, or 
whether it was in Payoli in Pennsylvania, if there's something 
bad going down behind school the next day, or if a kid brings 
in a weapon and puts it in his locker, kids need excuses to 
tell the truth. They need excuses to step up. If, every day, 
they walk by the same State trooper, the same resource officer 
and they got to know him and trust him, what we've found is 
they'd walk by and say, John, locker 27, Harry brought in a 
gun, and walked on, knowing he wouldn't be given away, but 
knowing he'd be safer.
    That's the part that I think people don't understand. As 
you reduce resources, you reduce that connection, whether it's 
a kid talking to a cop in a school hallway or a neighbor 
talking to a cop who has repeatedly been assigned to that 
neighborhood or that area town. At any rate, I know you know--
you've forgotten more about this than I'm going to know, but I 
think it's important for the record that people understand the 
connection.
    Let me ask you one other point about prevention here. 
Chief, you had a good guy who became a friend of mine, a very, 
very conservative predecessor, politically conservative in 
every way, who I met in 1992 when I was drafting the crime 
bill. I think Scott and I went down to see him in Dover. I 
expected to get push-back about, you know, we should just hang 
them higher and shoot them on sight kind of thing. I'm joking. 
`I said, what most can I do for you, Chief? And he went to a 
card catalogue, Commissioner, like 3 x 5 cards, like the old 
library thing, and he pulled out of the Dover Police Department 
file this catalogue of cards. He said, Senator, I just want to 
know what I've been following. He didn't use a computer print-
out, he had cards. He said, the difference between crime among 
those between the ages of 13, and I think he said 21, in East 
Dover and West Dover is significant. The only thing I attribute 
it to, Senator, is one side of Dover has a Boys & Girls Club, 
the other doesn't. He said, you want to do something for me? 
Don't give me a two more cops, give me a Boys & Girls Club. 
That's one of the most conservative--you guys know who I mean. 
The most conservative police officers I knew.
    It brings me to this point. You're going to be competing 
against Philadelphia for your request for drug courts money. 
You're going to be competing against Philadelphia for Boys & 
Girls Club money. You're going to be competing against 
Philadelphia's request to train and equip your officers.
    I realize people think this is parochial, but obviously the 
problems in Philadelphia are bigger, considerably bigger. But 
the problems in Delaware are real. I want both of you at either 
end--you represent two great cities, one very small, the 
capital, in relative terms, and one very major, major city.
    Does it make sense--I know I'm asking you to speak against 
interest here. But does it make sense to think about this in 
only focusing on, if we could, where 50 percent of the crime is 
committed and not focus on where the remaining 50 percent is 
committed? We can narrow it down. I think it was said, what, 14 
cities? Fourteen jurisdictions, 16 jurisdictions, 50 percent of 
the crime is committed. Philosophically, how does that work? I 
mean, is that a sound way to go about dealing with violent 
crime in America? Commissioner?
    Commissioner Ramsey. Well, Philly is probably one of the 
16. I would still argue that that's not a sound way of going 
about it. I mean, it's all relative. The problems I have in 
Philadelphia are real for me. The problems in Dover are real 
for the chief. I mean, I think that everyone needs to be able 
to justify what they're doing, why they're doing it, and so 
forth.
    But I think to say only 16 cities, that doesn't mean that 
there's an absence of crime in all these other places. The 
point you made about prevention, the best crime-fighting tool 
is stopping it from occurring to begin with. So, you know, we 
do have to take a look at those programs that stop crime from 
occurring to begin with and not just focus on more cops. You do 
have to take an approach that's more holistic in nature that 
really takes into consideration all these other factors.
    Chief Horvath. Senator, we spoke about this earlier at 
lunch. The idea of Dover Police Department competing against 
the Philadelphia Police Department, or the city of Dover for 
Boys & Girls Clubs, or Weed and Seed, or any other type of 
money competing against Philadelphia is crazy. It's 
intimidating. I know that he is going to be able to justify the 
need so much easier on paper than I can, so I feel like my 
chances of competing against him and winning are crazy.
    He is charged with protecting the citizens of Philadelphia, 
and I am charged with protecting the people of Dover. I think 
my job is just as important as his. Maybe not as big of a 
scale, maybe not as difficult, but it is just as important. I 
think we need to be concerned with the quality of life for 
everybody, not just for the people in the 16 cities that caused 
the violent crime rate to rise throughout the country. If you 
get robbed at gunpoint or beat up at an ATM machine in Dover, 
that's just as serious as in Philadelphia. So I don't like the 
idea, the philosophy of, let's give him the money because he 
has a bigger problem. My problem is just as big. He basically 
said that in his statement, too.
    Chairman Biden. Well, again, the reason I raise this is, 
right now we are all justifiably focusing on, and the press is 
focusing on, earmarks and how they've ballooned in the 
appropriations process and how there are tens of billions of 
dollars and so on, and we should be concerned about it, and we 
are.
    In Delaware, we only have three Federal representatives. We 
haven't asked for any Lawrence Welk museums. We haven't asked 
for any money for anything that we can't totally justify on the 
merits. But unless, in the 38 States that are relatively small, 
unless you're able to compete, the idea that we're going to get 
money---there's only going to be money--I'm making this up--to 
build 10 significant bridges in America this year, guess what, 
if you do it simply based on population, 38 States will never 
get a bridge. They will never get a bridge.
    Now, if you have enough money to build all the bridges that 
are needed, there's no problem. If you have enough money to 
provide all the funding you need in the Nation to fight crime, 
no problem. You should get less money than Philadelphia gets. 
Wilmington should get more money than you get. New York should 
get more money than Philadelphia gets. But that's not the 
reality. The reality is, we woefully under-fund our basic 
infrastructure and we woefully under-fund the fight against 
crime. So I just think that the reason why there are formulas 
for distribution is that it's a little like highways. If you 
didn't have a formula for distribution of highways, all the 
highway money would go to five States. The rest of us would be 
riding on dirt roads.
    So I just want to make it clear. I'm sure that what will 
happen, is I'm going to get--there will be notice of the fact 
that Delaware gets, on a percentage basis, more than its fair 
share of this money. But the question is on these earmarks, in 
my view, is the money that it's gotten not justified in its own 
right? Not relative to something else, but justified relative 
to the particular thing for which you're spending the money? As 
you know, Chief--you don't known as well, but I think all your 
predecessors will tell you, I have been very, very cognizant of 
Philadelphia's needs over the years. Again, it's my 
neighborhood. It's my neighborhood. It's our neighborhood. Your 
success in Philadelphia affects our success in Delaware. I've 
been very cognizant of the needs of New Jersey, not being 
parochial, that's just a fact. There's 10 million people in the 
Delaware Valley. There are porous State lines, as they should 
be.
    So I just want to make it clear to you, I promise you I 
will fight to see to it you get the money you need, but I do 
not believe that when you fight for specific proposals, that if 
on their own they merit--they merit support, that's an earmark 
as dealing with crime. I might add, methamphetamine, which is a 
giant problem for all of us, most of it is rural communities. 
Not as many meth labs in south Philly as there are in 
Coeurdalene, Idaho. But if you base it on population, you would 
not think that. That's not to suggest, Commissioner, I'm not 
going to fight to make sure Philadelphia gets what it needs. I 
will. I might point out--and I realize we're going a little 
over. I had hoped to end by 4 and it's now seven after--is that 
Senator Specter and I are the co-sponsor of the bill you 
referenced.
    One of the things we can help you most with is to make 
sure, as the over 600,000 people we let out of State and local 
prisons this year, they have more than a bus ticket to get 
under a bridge. The rate of recidivism is overwhelming when 
people, when they get out of prison, they don't have any job 
opportunity, they don't have any training possibility, they 
don't have any drug rehab to go into. A significant portion of 
people released out of every prison, State and local, in 
America is addicted to drugs as they walk out the door, and 
it's your problem.
    That's why we're fighting so hard for this Second Chance 
Act, to actually invest $175 million into providing for 
transitioning these folks from prison, after serving in the 
Federal system, anyway, pretty set terms so that you don't have 
the total responsibility of dealing with it. So I thank you all 
for your support. I am going to be a bit of a broken record 
with you all. I've got to stop using that phrase. My 12-year-
old granddaughter at the time followed me to a speech, 
accompanied me.
    Actually, I was down in Dover speaking and she was the only 
one that would drive to Dover with me to hear Pop speak. I 
don't blame her. I blame everyone else. Coming back, she looked 
at me like all granddaughters. You know, granddaughters think 
grandfathers are special. Fathers are a different deal. But at 
any rate, she looked and me and she said, ``Pop, that was a 
good speech.'' I said, ``Thank you, honey.'' She said, ``Can I 
ask you a question?'' I said, ``Sure.'' She said, ``What's a 
record?''
    [Laughter.]
    She's very smart kid. She thought a record was some Olympic 
record or a sports record. She didn't think it was a piece of 
plastic that used to spin around.
    But at any rate, I realize I do sound like a broken record. 
But I'm going to come back to all of you again and again. I am 
determined--determined--to pass this comprehensive crime bill 
we have reintroduced, including authorizers of $1.15 billion 
per year for the next 6 years for COPS, $600 million for hiring 
50,000 new cops, $350 per year for new technology and equipment 
along the lines you were referencing, Commissioner, and $200 
million to train community prosecutors. That's not because my 
son was the Attorney General. I've been pushing that for 12 
years.
    We also have COPS Benefits, we call it, based on the 
Brookings's studies. COPS reauthorization results in savings, 
considerable savings, a safe society--the COPS bill, between 
$15 and $30 billion on costs not having to be paid as a 
consequence of crime.
    I add 1,000 FBI agents to focus on crime because of the 
point you all have made about the shift. I also restore 500 DEA 
agents. Again, used to work much more closely with you. They 
had more personnel. So I hope I can look forward to being able 
to talk with you all about how we pushed that through. I am 
convinced--I am convinced. I may be kidding myself, but they 
said the same thing when I initially introduced the Biden crime 
bill now 15 years ago, that people would never buy it--my 
colleagues, Democrat and Republican, see the need for this.
    But again, the only reason it passed before is because men 
and women in uniform showed up in Senators' offices and said 
this is important to us, not intimidating, just telling them 
because you're still the most believable group out there. So, I 
look forward to working with you all. I don't think we're going 
to have any problem restoring the Byrne grants.
    I also think, by the way, that we have not focused--and I'm 
not going to take the time to do it now, on another cut on a 
program that I spent a lot of time in my career working on. I'm 
trying to find the statistic here. But we found that this 
administration is also cutting the Regional Information Sharing 
System, the RISS program, which I assume you think is fairly 
important.
    Hopefully we can include that in restoration moneys 
quickly. But the longer fight is going to be providing for the 
kind of commitment we had before from the Federal Government in 
terms of shields, technology, and support. So if any of you 
have a closing statement, I'd invite it. If not, we will stand 
adjourned. I thank you for what you do for the country, and for 
your cities.
    [Whereupon, at 4:10 p.m. the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] 41527.001
    
    [GRAPHIC] [TIFF OMITTED] 41527.002
    
    [GRAPHIC] [TIFF OMITTED] 41527.003
    
    [GRAPHIC] [TIFF OMITTED] 41527.004
    
    [GRAPHIC] [TIFF OMITTED] 41527.005
    
    [GRAPHIC] [TIFF OMITTED] 41527.006
    
    [GRAPHIC] [TIFF OMITTED] 41527.007
    
    [GRAPHIC] [TIFF OMITTED] 41527.008
    
    [GRAPHIC] [TIFF OMITTED] 41527.009
    
    [GRAPHIC] [TIFF OMITTED] 41527.010
    
    [GRAPHIC] [TIFF OMITTED] 41527.011
    
    [GRAPHIC] [TIFF OMITTED] 41527.012
    
    [GRAPHIC] [TIFF OMITTED] 41527.013
    
    [GRAPHIC] [TIFF OMITTED] 41527.014
    
    [GRAPHIC] [TIFF OMITTED] 41527.015
    
    [GRAPHIC] [TIFF OMITTED] 41527.016
    
    [GRAPHIC] [TIFF OMITTED] 41527.017
    
    [GRAPHIC] [TIFF OMITTED] 41527.018
    
    [GRAPHIC] [TIFF OMITTED] 41527.019
    
    [GRAPHIC] [TIFF OMITTED] 41527.020
    
    [GRAPHIC] [TIFF OMITTED] 41527.021
    
    [GRAPHIC] [TIFF OMITTED] 41527.022
    
    [GRAPHIC] [TIFF OMITTED] 41527.023
    
    [GRAPHIC] [TIFF OMITTED] 41527.024
    
    [GRAPHIC] [TIFF OMITTED] 41527.025
    
    [GRAPHIC] [TIFF OMITTED] 41527.026
    
    [GRAPHIC] [TIFF OMITTED] 41527.027
    
    [GRAPHIC] [TIFF OMITTED] 41527.028
    
    [GRAPHIC] [TIFF OMITTED] 41527.029
    
    [GRAPHIC] [TIFF OMITTED] 41527.030
    
    [GRAPHIC] [TIFF OMITTED] 41527.031
    
    [GRAPHIC] [TIFF OMITTED] 41527.032
    
    [GRAPHIC] [TIFF OMITTED] 41527.033
    
    [GRAPHIC] [TIFF OMITTED] 41527.034
    
    [GRAPHIC] [TIFF OMITTED] 41527.035
    
    [GRAPHIC] [TIFF OMITTED] 41527.036
    
    [GRAPHIC] [TIFF OMITTED] 41527.037
    
    [GRAPHIC] [TIFF OMITTED] 41527.038
    
    [GRAPHIC] [TIFF OMITTED] 41527.039
    
    [GRAPHIC] [TIFF OMITTED] 41527.040
    
    [GRAPHIC] [TIFF OMITTED] 41527.041
    
    [GRAPHIC] [TIFF OMITTED] 41527.042
    
    [GRAPHIC] [TIFF OMITTED] 41527.043
    
    [GRAPHIC] [TIFF OMITTED] 41527.044
    
    [GRAPHIC] [TIFF OMITTED] 41527.045
    
    [GRAPHIC] [TIFF OMITTED] 41527.046
    
    [GRAPHIC] [TIFF OMITTED] 41527.047
    

</pre></body></html>
